<html>
<title> - [H.A.S.C. No. 113-114] FILIPINO VETERANS EQUITY COMPENSA- TION FUND: EXAMINING THE DEPART- MENT OF DEFENSE AND INTERAGENCY PROCESS FOR VERIFYING ELIGIBILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                                     
 
                         [H.A.S.C. No. 113-114]

                   FILIPINO VETERANS EQUITY COMPENSA-

                    TION FUND: EXAMINING THE DEPART-

                    MENT OF DEFENSE AND INTERAGENCY

                   PROCESS FOR VERIFYING ELIGIBILITY

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 24, 2014
                             
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
 
                                 ___________
                                 
                                 
                              U.S. GOVERNMENT PUBLISHING OFFICE
89-507                             WASHINGTON : 2015 
                             
                             
________________________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  
                       
                             
                             
                             
                             
                             

                                     
                                   
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    JOSEPH J. HECK, Nevada, Chairman

K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
MO BROOKS, Alabama                   JACKIE SPEIER, California
WALTER B. JONES, North Carolina      TAMMY DUCKWORTH, Illinois
AUSTIN SCOTT, Georgia                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
             Christopher Bright, Professional Staff Member
                Michael Amato, Professional Staff Member
                           David Baker, Clerk
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, June 24, 2014, Filipino Veterans Equity Compensation 
  Fund: Examining the Department of Defense and Interagency 
  Process for Verifying Eligibility..............................     1

Appendix:

Tuesday, June 24, 2014...........................................    29
                              ----------                              

                         TUESDAY, JUNE 24, 2014
FILIPINO VETERANS EQUITY COMPENSATION FUND: EXAMINING THE DEPARTMENT OF 
       DEFENSE AND INTERAGENCY PROCESS FOR VERIFYING ELIGIBILITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Heck, Hon. Joseph J., a Representative from Nevada, Chairman, 
  Subcommittee on Oversight and Investigations...................     1
Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Almeda, Celestino, Filipino Veterans Equity Compensation Fund 
  Claimant.......................................................    19
Baltazar, Jesse, Filipino Veterans Equity Compensation Fund 
  Claimant.......................................................    21
Flohr, Brad, Senior Advisor for Compensation Service, U.S. 
  Department of Veterans Affairs.................................     4
Lachica, Eric, Executive Director, American Coalition for 
  Filipino Veterans, Inc.........................................    24
Levins, Scott, Director of the National Personnel Records Center, 
  National Archives and Records Administration...................     6
MacEwen, BG David K. ``Mac,'' USA, The 59th Adjutant General of 
  the U.S. Army, Department of the Army..........................     3

                                APPENDIX

Prepared Statements:

    Almeda, Celestino............................................    49
    Baltazar, Jesse..............................................    57
    Flohr, Brad..................................................    40
    Lachica, Eric................................................    64
    Levins, Scott................................................    45
    MacEwen, BG David K. ``Mac''.................................    33

Documents Submitted for the Record:

    Statement of U.S. Senator Dean Heller........................    75
    Joint statement from Jose L. Cuisia, Jr., the Philippine 
      Government's Ambassador to the United States, and Major 
      General Retired Delfin N. Lorenzana, Head of the Philippine 
      Government's' Office of Veterans Affairs...................    77
    Testimony by Major General Antonio Taguba, USA (ret.)........    78

Witness Responses to Questions Asked During the Hearing:

    Dr. Heck.....................................................    91

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    95
FILIPINO VETERANS EQUITY COMPENSATION FUND: EXAMINING THE DEPARTMENT OF 
       DEFENSE AND INTERAGENCY PROCESS FOR VERIFYING ELIGIBILITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                            Washington, DC, Tuesday, June 24, 2014.
    The subcommittee met, pursuant to call, at 2:45 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joseph J. Heck 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOSEPH J. HECK, A REPRESENTATIVE FROM 
 NEVADA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Dr. Heck. Well, good afternoon. Thanks everybody for 
coming. Before we begin today, I would like to take a moment to 
welcome and thank Ranking Member Tsongas and all the members of 
the subcommittee who hopefully will be showing up, as we just 
finished votes, for their participation today.
    Although the Oversight and Investigations Subcommittee has 
been engaged on several important topics, and we have convened 
for other purposes in recent months, this is the first hearing 
since I assumed the gavel from Representative Roby. Mrs. Roby 
did an outstanding job as chairwoman, and was ably assisted by 
Ms. Tsongas. And I look forward to advancing that work with 
everyone in the months remaining in this Congress.
    We stand at a critical moment for our Nation's military and 
national defense. And I believe the subcommittee's jurisdiction 
provides us a great opportunity to have a profound effect on 
policies both at home and abroad.
    Today, we convene to learn more about a program meant to 
compensate Filipino veterans for service to this Nation during 
the Second World War. Filipinos have a long and distinguished 
history fighting on behalf of the United States.
    In 1941, more than 260,000 Filipino soldiers responded to 
President Roosevelt's call to arms, and fought under the 
American flag during the World War II. Many made the ultimate 
sacrifice as soldiers or guerrilla fighters during the Japanese 
occupation of the Philippines. However, most World War II 
Filipino veterans did not receive compensation similar to what 
U.S. veterans received.
    The Filipino Veterans Equity Compensation Fund was 
established to provide a one-time payment to Filipino veterans 
as settlement for all future benefits claim based on service. 
To date, over 18,000 payments have been approved by the U.S. 
Veterans Administration. However, some Filipino veterans have 
expressed concern that they were impeded from filing claims or 
that their claims were improperly denied.
    The plight of denied Filipino veterans has been a 
consistent focus of mine since I first met the members of the 
Las Vegas ``Mighty Five.'' The ``Mighty Five'' are five 
Filipino veterans who fought bravely under American commanders 
in the Philippines and helped us win the war in the Pacific. 
The risks they took were no less daring than their American 
counterparts, their sacrifices made no less selfless.
    Now, these brave veterans find themselves engaged in a new 
fight for recognition, respect, and honor. I have spoken with 
these proud men and their families on many occasions. They are 
certainly not getting any younger. In fact over the past 3 
years the ``Mighty Five'' was reduced to only two with the 
passing of Silverio Cuaresma, Augusto Oppus, and Romeo 
Barreras. In addition, we lost Commander Francisco Cedulla in 
2011, all of which were residents of southern Nevada.
    It is not about the money for these men. They don't need 
another dime to live out their years comfortably. They are, 
however, eager to have their service recognized. They want to 
know that the United States Government, the Department of 
Defense, and others consider their service was equivalent to 
many others who served proudly.
    The purpose of today's hearing is to receive testimony from 
relevant government witnesses regarding the claims approval 
process, and from Filipino veterans regarding their experience. 
Before recognizing my distinguished ranking member, I note that 
we will be joined potentially by some Members who are not 
members of the subcommittee. Accordingly, I asked unanimous 
consent that non-Armed Services Committee Members be allowed to 
participate in today's hearing after all committee members have 
had an opportunity to ask questions. Hearing no objections, so 
ordered.
    Now, I turn to Ms. Tsongas for any remarks she may wish to 
make.

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Tsongas. Good afternoon, and thank you Chairman Heck. 
And I would like to thank the chairman, the panel of witnesses, 
the Filipino veterans and their families who are here with us 
today.
    We as a nation owe a debt of gratitude, not only to our 
U.S. veterans, but to all those who have taken up arms to join 
our military in pursuit of a common purpose. In this sense, 
recognizing the significant contributions of Filipino veterans 
who provided invaluable support to the United States military 
during World War II is an important issue. And I look forward 
to your testimony on the Philippine Veterans Equity 
Compensation Fund and the claims approval process.
    And for your information, those of you--those of you 
veterans here who or did participate in World War II, my father 
was a survivor of the bombing of Pearl Harbor, and he went on 
to help build runways across the South Pacific. So I thank you 
for all that you have done on our behalf. And I look forward to 
your testimony.
    Dr. Heck. Thank you Ms. Tsongas. Now, I have also received 
various materials on this topic. I ask by unanimous consent 
that the following be entered into the record: a letter from 
Nevada Senator Dean Heller; a joint statement from Jose L. 
Cuisia, Jr., the Philippine Government's Ambassador to the 
United States and Major General Retired Delfin N. Lorenzana, 
Head of the Philippine Government's' Office of Veterans 
Affairs; a statement from Major General Retired Antonio Taguba, 
United States Army.
    Is there any objection? Without objection, so ordered.
    [The information referred to can be found in the Appendix 
beginning on page 75.]
    Dr. Heck. This hearing will include two panels. On our 
first panel, we will hear testimony from three witnesses 
representing the Department of the Army, the Department of 
Veterans Affairs [VA], and the National Personnel Records 
Center of the National Archives and Records Administration. In 
our second panel, we will receive testimony from the head of 
the Filipino Veterans Organization and two Filipino Veterans 
Equity Compensation Fund claimants.
    For the first panel, we have Brigadier General David 
``Mac'' MacEwen, the 59th Adjutant General of the United States 
Army. Mr. Bradley Flohr is the Senior Advisor for Compensation 
Service at the Department of Veterans Affairs. Mr. Scott Levins 
is the Director of the National Personnel Records Center at the 
National Archives and Records Administration. We will hear 
prepared statements from the witnesses in that order, followed 
by questions from the members.
    I thank you all for joining us today. I look forward to 
hearing your testimony. General MacEwen, we will start with 
you.

    STATEMENT OF BG DAVID K. ``MAC'' MacEWEN, USA, THE 59TH 
   ADJUTANT GENERAL OF THE U.S. ARMY, DEPARTMENT OF THE ARMY

    General MacEwen. Chairman Heck, Ranking Member Tsongas, 
distinguished members of the committee, I thank you for the 
opportunity to appear before you on behalf of America's Army to 
discuss Filipino Army verification of service and measures your 
Army has taken to improve and streamline the process. This is 
personal to me because my father served in the Philippines 
during World War II. And so, ensuring accurate recognition of 
service of Filipino Army members is critical.
    Between late 1942 and June of 1948, the United States Army 
developed and administered a program to extend formal 
recognition to Filipino guerrilla units and individuals who 
contributed to the defeat of Japanese forces in the Philippines 
during World War II. This Guerrilla Recognition Program was 
robust. An immense number of documents were collected and 
investigated to ensure document accuracy. The results of this 
program were authenticated rosters of recognized guerrilla 
units, individual letters of recognition, certified witness 
affidavits and AGO [Adjutant General's Office] Form 23 
Affidavit for Philippine Army Personnel. These remain the basis 
for the determination of service.
    The Army maintains complete confidence that the records and 
files completed in 1948 provide the best and most accurate 
determinations that could have been made from that time until 
today. The Army transferred the Philippine veterans service 
verification process to the National Personnel Records Center 
[NPRC] in 1998. The Army, using NPRC as our agent, maintains a 
close relationship also with the Veterans Administration. The 
Army has a long-standing and close working relationship with 
both NPRC and the VA. And together we are committed to 
sustaining an efficient claims processing program for Filipino 
veterans.
    The issue of service verification has remained constant 
over the years. In October 2012, the White House Initiative on 
Asian-Americans and Pacific Islanders in collaboration with OMB 
[Office of Management and Budget] and the Domestic Policy 
Council, created the Filipino Veterans Equity Compensation Fund 
Interagency Working Group. The working group increased the 
transparency and concluded the process we use is sound. This 
effort represented the first time all organizations involved in 
the verification process were brought together to examine the 
process from start to finish.
    The Army believes the decisions made 66 years ago were made 
by a competent authority that had the benefit of extensive 
postwar field work in conducting investigations with firsthand 
evidence to determine claims validity. The Army is well 
positioned and committed to meeting the claims processing needs 
for Filipino veterans. It is not possible for the Army to 
conduct a better, more detailed and more thorough investigation 
today than that which was conducted between 1942 and 1948. We 
have worked in the past with Members of Congress regarding 
eligibility rules and the criteria for service on individual 
cases and concerns that they may have. And we will continue to 
do so.
    Chairman Heck, Ranking Member Tsongas, and members of the 
subcommittee, we wish to thank you for your continued support 
which has been vital in sustaining our All-Volunteer Army 
through an unprecedented period of continuous combat operations 
and will continue to be vital to ensure the future of our Army. 
I look forward to answering your questions today.
    [The prepared statement of General MacEwen can be found in 
the Appendix on page 33.]
    Dr. Heck. Thanks, General. Next we will hear from Mr. 
Flohr.
    Excuse me, Mr. Flohr, is your mic on?

   STATEMENT OF BRAD FLOHR, SENIOR ADVISOR FOR COMPENSATION 
          SERVICE, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Flohr. Is this better? Sorry. Chairman Heck, Ranking 
Member Tsongas, and subcommittee members, thank you for the 
opportunity to provide an update on the Department of Veterans 
Affairs administration of the Filipino Veterans Equity 
Compensation [FVEC] Fund. As you said, Mr. Chairman, in 1941 
more than 260,000 Filipino soldiers responded to President 
Roosevelt's call to arms and fought under the American flag 
during World War II. Many served as both soldiers in the United 
States Armed Forces in the Far East and as recognized guerrilla 
fighters during the Imperial Japanese occupation in the 
Philippines. Later many of these brave individuals became proud 
United States citizens.
    In 1946, the Congress passed the Rescission Act, providing 
Filipino World War II service does not qualify for the full 
range of benefits available to the United States veterans. 
Congress and this administration recognizes the extraordinary 
contribution made by Filipino veterans. The American Recovery 
and Reinvestment Act of 2009, enacted on February 17, 2009, 
included a provision creating the Filipino Veterans Equity 
Compensation Fund. Eligible veterans who are U.S. citizens 
receive a one-time payment of $15,000. Eligible veterans who 
are not U.S. citizens receive a one-time payment of $9,000.
    Philippine veterans were required under the law to file a 
claim by February 16, 2010. To qualify for this payment, an 
individual must have served before July 1st, 1946, in the 
Philippine Commonwealth Army, including recognized guerrillas, 
or in the New Philippine Scouts. In determining whether 
claimants are eligible for any VA benefit, including FVEC, VA 
is bound by U.S. military service department determinations as 
to whether the claimant has the qualifying service in 
accordance with statutes and regulations.
    Less than 2 months after the law was passed, VA established 
an adjudication process, payment system, accounting system, and 
payment delivery system to successfully issue the first FVEC 
payment on April 8, 2009. VA conducted numerous successful 
outreach programs to inform veterans and their families about 
this benefit. This outreach continued until February 16, 2010, 
at the end of the 1-year filing period.
    VA's Manila regional office established a dedicated team of 
employees who solely processed these claims. The Manila 
regional office also sent letters to all veterans found 
eligible for the benefit, advising them of their potential 
eligibility for VA disability compensation benefits.
    The Manila office received 42,755 claims for FVEC between 
February 2009 and February 2010. As of June 1, 2014, of the 
claims received the Manila regional office granted 18,900 
payments totaling $225,341,204 million. Currently there are 
23,855 claims that have not been granted due to ineligibility.
    All original claims have received a decision, but there are 
currently 19 reopened claims, and 31 appeals pending with VA. 
Approximately 48 appeals of these decisions are pending with 
the Board of Veterans Appeals, and another 16 are before the 
United States Court of Appeals for Veterans Claims.
    If all individuals with reopened claims or pending appeals 
are found to be eligible for the payment, the Manila regional 
office would pay additional funds of approximately $1.7 million 
out of the fund. This assumes that all pending claims and 
appeals that are granted would be paid at the maximum of 
$15,000. In addition, $14.5 million has been returned to the 
Treasury for returned checks which results when a veteran dies 
with no eligible surviving spouse claimant. A total of $53.9 
million remains in the appropriation.
    The primary reason for denial of claims was the inability 
of these individuals to establish qualifying service required 
by section 1002(d) of the Recovery Act. These denied claimants 
included individuals from all walks of life who exercised their 
right to make an application to VA including children, 
grandchildren, and other family members of alleged veterans, 
widows of long-deceased veterans, and thousands of duplicative 
claims that we received.
    In determining whether a claimant is eligible for VA 
benefit including FEVC, VA is legally bound under its 
regulations by military service department determinations as to 
service. Currently, unless VA has a genuine document issued by 
a U.S. military service department containing needed 
information to establish eligibility, VA regulations applicable 
to all claimants require that VA request verification of 
military service in the appropriate service department. 
Requests for service verification are sent to the National 
Personnel Record Center for World War II service and the U.S. 
Army and the Philippine Service who is the custodian of the 
U.S. Army's collection of records.
    This concludes my testimony Mr. Chairman. I would be happy 
to address any questions you or the other members of the 
subcommittee may have.
    [The prepared statement of Mr. Flohr can be found in the 
Appendix on page 40.]
    Dr. Heck. Thank you, Mr. Flohr. And we will complete this 
first panel with Mr. Levins.

 STATEMENT OF SCOTT LEVINS, DIRECTOR OF THE NATIONAL PERSONNEL 
  RECORDS CENTER, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

    Mr. Levins. Good afternoon, Chairman Heck, Ranking Member 
Tsongas, and members of the subcommittee. Thank you for calling 
this hearing and for your continuing efforts to recognize the 
extraordinary contributions of Filipino veterans, including 
those who served in guerrilla units, for the service they 
provided in support of the United States during World War II.
    I am proud to represent the staff of the National Personnel 
Records Center, many of whom are veterans themselves. I am 
pleased to appear before you today to discuss the work that the 
center does to serve those who have served. We appreciate your 
interest in this important work.
    The NPRC is an office of the National Archives and Records 
Administration [NARA] located in multiple facilities in the St. 
Louis, Missouri, area. The center stores and services over 4 
million cubic feet of military and civilian personnel, medical 
and related records dating back to the Spanish-American war.
    NPRC holds approximately 16 million official military 
personnel files. These holdings also include service treatment 
records, clinical records from military medical treatment 
facilities, auxiliary records such as pay vouchers and service 
name indexes, and organizational records such as morning 
reports and unit rosters.
    NPRC's military records facility receives approximately 
4,000 correspondence requests each day from veterans, their 
next-of-kin, various Federal agencies, Members of Congress, the 
media, and other stakeholders. Nearly half of these requests 
come from veterans seeking a copy of their separation 
statement, their DD Form 214 or equivalent, because they need 
it to pursue a benefit. The center responds to 90 percent of 
those requests in 10 business days or less.
    In addition to this correspondence work, the center 
normally receives between 5,000 and 10,000 requests each week 
from the VA and other Federal agencies requiring the temporary 
loan of original records. These requests are normally serviced 
in 2 to 3 business days. Also included in these holdings are 
claim folders pertaining to Filipino nationals that were 
adjudicated by the U.S. Army after World War II, and unit 
rosters created by the U.S. Army in conjunction with this 
postwar recognition program.
    In 1998, NARA entered into an agreement with the Department 
of the Army to accept the physical transfer of these records, 
though they remain today in the legal custody of the Department 
of the Army. Also as part of the agreement, beginning in fiscal 
year 1999, NPRC has assumed the responsibility for referencing 
these records consistent with procedures previously established 
by the Army.
    In doing so, NPRC reviews its holdings to authenticate 
service determinations previously made by the Department of the 
Army. NPRC does this by examining claim folders, finding aids, 
and a variety of rosters compiled by the Army during the 
postwar recognition program. Most often this is done in 
response to requests from the Department of Veterans Affairs 
regarding compensation claims. Recognizing the urgency of these 
requests, NPRC strives to respond to these requests in 10 
business days or less.
    The technical instructions applied by NPRC technicians in 
referencing these records and responding to such requests, have 
been furnished to the American Coalition for Filipino Veterans 
and have been posted online for public viewing. The 
instructions are consistent with longstanding policies and 
practices of the Department of the Army and were applied by 
Army staff prior to the transfer of the reference function to 
NPRC.
    On multiple occasions since the establishment of the 
Filipino Veterans Equity Compensation Fund, officials in the 
Department of the Army have visited NPRC, reviewed its 
technical instructions, examined its work process, and 
confirmed that NPRC was providing reference services consistent 
with the long established policies and practices of the 
Department of the Army.
    NARA has also preserved records of historical value, 
documenting events that transpired in the Philippines during 
and after World War II. Included are records describing actions 
taken by the U.S. Army to recognize the service of Filipino 
nationals who supported the United States Army Forces in the 
Far East, including those who served in the guerrilla units. 
These records are available for public review at the National 
Archives Building in College Park, Maryland.
    NARA is pleased to work with the subcommittee and other 
stakeholders to ensure Filipino veterans, including those who 
served in recognized guerrilla units, are recognized for their 
extraordinary service and support of the United States during 
World War II.
    We have briefed interested congressional staff and other 
stakeholders on NARA's role in the process. We actively 
participated in the interagency working group established by 
the White House to analyze the process, and we have shared 
information with the Filipino veterans advocacy groups to help 
provide greater understanding of the reference process.
    Working with the Department of the Army, we modified our 
response letters to provide more specific details regarding our 
reference results in instances where we are unable to 
positively authenticate a prior service determination. And at 
the suggestion of the White House interagency working group, we 
digitized and posted online a report titled ``U.S. Army 
Recognition Program of Philippine Guerrillas.'' This report 
explains how the recognition process was developed at the close 
of World War II.
    We again extend our thanks to the subcommittee for 
expressing such interest in the role that NPRC provides in this 
important process. I am happy to answer any questions you may 
have.
    [The prepared statement of Mr. Levins can be found in the 
Appendix on page 45.]
    Dr. Heck. Thank you, Mr. Levins. I thank all of you for 
being here today and for providing your testimony. As a prelude 
to my questions, I want to show a quick kind of a 2-minute 
video that has several points to make about this presentation.
    [Video shown.]
    Dr. Heck. I ask unanimous consent to include into the 
record the video material pertaining to the Department of 
Veterans Affairs.
    Any objection? Hearing none, so ordered.
    [The information referred to is retained in subcommittee 
files and can be found at http://www.youtube.com/
watch?v=1zuRM43nu
JUn ]
    Dr. Heck. So that video I think is part of the issue and 
that--while it is great to have the outreach, that may have 
created some misperceptions when you hear that is open to every 
World War II Filipino veteran, that it can be applied for very 
easily, simple one-page, very simple, don't attach any 
information. We will call you if we need anything else. And 
then we see a lot of, or a fair number of denied claims that 
seem to keep coming back for appeal or those that just simply 
gave up.
    NPRC documents provided to me by my constituents state that 
in order to establish service, the veteran's name must appear 
in the archives, and claim folders must contain compatible 
information. So can you tell me or define or outline what 
compatible information is acceptable?
    Mic?
    Mr. Levins. I think I turned it off instead of on, I am 
sorry about that. I can give you an overview of how the process 
works. And first, let me note that the standard operating 
procedures are online and available to the public. It included 
a lot of nuances that I won't cover in my verbal overview.
    When a request comes in, we enter it into a tracking system 
and we digitize it. The request comes in from the VA, and then 
we assigned it to a small team of technicians. Because the 
volume of work that we received that relates to Philippine Army 
veterans is so small relative to the rest of the volume of work 
that we get, and because the holdings are specialized, they are 
different than a typical military personnel folder, and the 
process we follow is different than what we do to pull a 
typical military personnel folder and extract that DD-214, we 
assigned these cases to a specifically small group of people 
who are especially trained to work on them.
    One of the staff members--a woman named Connie Tauzer, who 
has been doing this work for decades, and actually did it with 
the Department of the Army, and was transferred to the National 
Archives and Records Administration at the time the records and 
the function was transferred to us.
    The first step in the process is to locate a claim folder. 
And it requires someone to physically go into a stock area 
where there are about 10,000 boxes of records of claim folders 
that were submitted by Filipino nationals to the Army during 
the recognition process, and they are arranged alphabetically.
    And so, the person will have to go out and try to 
alphabetically find the responsive record. When they do that, 
they will consider multiple ultimate spellings of the name, 
phonetics spellings, recognizing that the name Felipe could 
have been spelled with an F or P. And eventually, they will 
exhaust their efforts to find a claim folder. Once they find 
the claim folder, when they review its contents, what they are 
looking for is what is called the Form 23, which is an 
affidavit that was submitted by the Filipino national at the 
time of the recognition program.
    The next thing they are going to do is then attempt to find 
a roster, and to do that, what they will do is to go to a 
finding aid. Finding aids are cabinets full of index cards. And 
they will--again, they are arranged alphabetically. They will 
try to find the corresponding index card, and that will direct 
them to a specific number unit roster. Then they will go and 
retrieve that unit roster. And they will compare the unit 
roster with the Form 23.
    The unit roster is a list of names and ranks and units. But 
back then, there were no Social Security numbers or service 
numbers assigned. So you have to compare the Form 23 to make 
sure that it is consistent with what is on the roster, and the 
roster is the definitive source. If those two pieces of 
information match, they extract information, furnish documents 
to the VA, and they use that to adjudicate the claim.
    Dr. Heck. So then the claim that they have has to be both 
on a roster and have that piece of paper in the folder--is what 
is required to be certified?
    Mr. Levins. Yes. Yes, sir.
    Dr. Heck. So I would----
    Mr. Levins. And--I am sorry to interrupt you. That process 
is for guerrillas. For members of the Philippine Army, it is 
identical to that, except the procedures allow us, for members 
of the Philippine Army to consider--if they are not on a 
roster, to consider some secondary information that might also 
be in that claim folder.
    Dr. Heck. Okay. So an AGO Form 23 is the acceptable 
document to demonstrate proof of service?
    Mr. Levins. Not on its own.
    Dr. Heck. No, but that is the document that has to match 
with a roster?
    Mr. Levins. Yes.
    Dr. Heck. Or some other document if it is a regular Army 
not a guerrilla?
    Mr. Levins. Right.
    Dr. Heck. Okay. So I mean, is it possible that back in 1948 
when hostilities concluded and everything was drawing down, 
that somebody didn't make it onto a roster, but they still have 
an AGO Form 23? And so, what is the mechanism by which an 
individual who may not be on the roster, but has an AGO Form 
23, can apply and be approved for services, is that--there is 
no option for that individual, because they are not on a roster 
that was constructed back in 1948?
    Mr. Levins. In the case of guerrillas, that would be the 
case. What you could do is there are historical records at the 
National Archives in College Park that could be researched if 
you are trying to figure out why you were not recognized.
    I had an opportunity yesterday to actually look at some of 
those records. And I looked at a case where someone had written 
into our center on multiple occasions. And we had not been able 
to authenticate the service. And when I went back to the 
Archive Records in College Park, I was able to find the history 
that shows that they were in the unit they said they were in. 
But it was a very deliberate decision by the Army to exclude 
two companies from that unit from official recognition. There 
were multiple letters appealing to the Army to reconsider its 
decision, and there were multiple responses indicating that 
this was a very deliberate decision that was not an oversight; 
this was back in the late 1940s or early 1950s time period.
    Dr. Heck. So despite any other verifiable information they 
may have, particularly in AGO Form 23, and this is the one form 
one of my constituents who has been re-denied and also denied 
on appeal, because the name doesn't appear on a roster, as the 
guerrilla roster, they will not be eligible for compensation?
    Mr. Levins. In the case of guerrillas, that is correct. We 
have, like I said, nearly 10,000 cubic feet of people who 
stepped forward and submitted those Form 23s, and a lot of 
those folks are not on rosters.
    Dr. Heck. Okay. I will perhaps come back on a second round. 
But I will yield back and recognize Ms. Tsongas.
    Ms. Tsongas. Thank you. As we will hear in our subsequent 
panelists and as Congressman Heck is beginning to get at, the 
issue of service verification really seems to be the main issue 
at hand. And more specifically, it seems that much of the 
disagreement hinges on the question of which service records 
are currently required for positive determination of service 
versus which documents could be used and considered acceptable.
    So, General MacEwen, a question I have for you is, in your 
testimony, you note that the Army maintained ``complete 
confidence'' in the records and files it compiled in 1948. What 
gives the Army such certainty that its records from nearly 70 
years ago are the best and most accurate determination of 
qualifying Filipino service possibility? And if the best, why 
is it not--why are they not necessarily not the only? And isn't 
it possible that individuals who served honorably under U.S. 
command did not make it onto approve rosters? And as we hear 
the sort of nature of the record keeping, given that it is as 
old as it is, as rudimentary in its way as it is, given sort of 
modern techniques, I just would like to hear your testimony as 
to why you are so certain that this should be the primary if 
not the only route to verification of service?
    General MacEwen. Yes, ma'am, thank you--thank you for that 
question. The process that they went through in 1942 to 1948 
was a very deliberate process, a sophisticated process, field 
work done, lots of public work with the people of the 
Philippines and there were decisions made, and that is the 
reason these records were classified originally.
    These files were classified ``Secret/No Foreign'' at the 
time. They were declassified about 20 years ago, but--or about 
20 years ago. But they were classified for a purpose, because 
there was all kinds of information in those files that got to 
the entire service, because it wasn't just the time in service 
that the requirement was when we started with this verification 
and determination process between 1942 and 1948.
    It had a number of different parts to it. Not only that it 
had a time period, but it also had a participation period. 
There were--I mean, 1.2 million claims during the 1940s for 
verification--determination of qualifying service, but only 
260,000 of those were deemed to be qualifying service based on 
this very deliberate process.
    So it is that deliberative process that they have made and 
documented so clearly is the reason that I have confidence that 
I--we couldn't do it any better under the rules that were 
established by the Congress in the 1940s of what qualifying 
service was.
    Ms. Tsongas. Did the rules that you applied in the 1940s 
that are the challenge here or because I still--we will hear 
from a subsequent panelist that did not appear in the list that 
you have put together. And yet, it is very clear from the 
records that he has been able to provide, that he did actually 
serve.
    So I am just--so as a result, you know, for whatever 
reason, if he didn't make it onto the list back in the 1940s, 
why he should automatically be ruled out given that 
subsequently he was able to show his service?
    General MacEwen. Yes, ma'am. The name on the roster means 
that that person, their documents were scrutinized, verified 
and authenticated at the time. And that was--that is a decision 
that I can't see where I could go back and see under those same 
criteria that were in place in 1942, that I can't second-guess 
their view.
    Ms. Tsongas. All right. Another question, is there a 
process in place for people who did not hear, perhaps didn't 
see the public announcement that this was available to them, as 
they come forward, they learned post 2010 about this? Is there 
any process in place for those people?
    Mr. Flohr. Ranking Member Tsongas, unfortunately there is 
not. The statute limited that time period to a 1-year period 
ending in February of 2010. We are talking a lot here about 
guerrilla service and being unable to verify that. You know, VA 
has granted a number, thousands and thousands of claims from 
Philippine veterans, they were eligible Commonwealth Army and 
guerrillas were eligible for disability compensation for 
injuries incurred while they were on active duty. And their 
surviving spouses were eligible for death benefits if they died 
of a service connected disability or while on active duty.
    So we don't have an issue with verifying that type of 
service, because this has always been verified. Because we have 
got that information, we had verified service and we granted 
benefits to--as I said thousands of Philippine veterans.
    It is only the cases of the guerrillas that have not come 
forward or have not been found to be a guerrilla on a 
reconstructed roster. I can tell you there is an issue with the 
way the names may have been recorded. We have several hundred, 
a number of hundreds of appeals of denials for this benefit.
    And as of May of last year, we have granted about 450 
appeals we had overturned because we found that the individual 
served under a slightly different name. Served with the middle 
name or did not serve with the middle name, and once we got 
that information, we provided it to NPRC. They were able to 
verify that person's eligibility. And then we granted the 
benefits immediately.
    So it is really as General MacEwen said, there is a lot 
about going backwards. And right now, it would be very 
difficult to go back and find unfortunately a number of these 
individuals.
    Ms. Tsongas. Thank you. My time is up.
    Dr. Heck. So I guess, following up on Ms. Tsongas's line of 
questioning, I guess, you know, it certainly is possible that 
individuals who served honorably in a recognized guerrilla unit 
may have been omitted from the reconstructed roster for several 
reasons, it would appear. Some is that perhaps the service 
wasn't determined to be valid service, some maybe that they 
just didn't show up to get their name put on the roster for 
whatever reason. They just, you know, missed the time when the 
rosters were reconstructed, and their name didn't show up on it 
for whatever reason.
    So in that regard, and I think Mr. Levins, you mentioned 
that if they were able to find some other type of documentation 
of service whether it was, you know, in the National Archives 
in College Park, that showed them participating in a unit that 
was recognized, that somehow they would then be eligible for 
the benefit, is that correct?
    Mr. Levins. Did I turn it off? I am not aware of that ever 
happening before. Yesterday, it was the first time I laid eyes 
on those materials at College Park. And what they showed me was 
a historical accounting of the effort that the Army only went 
through during this recognition program. And that that would be 
a good source to go to if you were looking for a legitimate 
reason as to why your unit may have been excluded.
    I have never been to the Philippines, and I wasn't born 
until 25 years after the war. So I don't consider myself an 
expert at this. But in preparation for this hearing, I read a 
lot of the historical documents about the Army effort. And 
there were--there is--MacArthur had five points that 
established the criteria for units to be recognized.
    And those five points, they dealt with things like they had 
to be organized in a specific manner that was similar to a U.S. 
Army unit or to a Philippine Army unit. There had to be record 
keeping. It had to be a full-time commitment, not a part-time. 
So the impression I got from reviewing those materials is that 
there are probably a number of people who supported the United 
States in some way or another, but fell short of the threshold 
to have their service recognized by the Department of----
    Dr. Heck. It kind of segues into my next question. So I am 
looking at an AGO 23 now. And on it there are kind of three 
categories of service. There is a USAP Regular or Reservist, 
USAP Guerrilla, and then Civilian Guerrilla. Can you address 
the issue of a Civilian Guerrilla, and whatnot as a category? 
Those individuals are eligible for the benefit or would they 
not as a category be eligible, because it was a part-time--
perhaps a part-time service and not a recognized force?
    General MacEwen. Sir, I don't--I don't know the answer. I 
will take that for the record. I can tell you though, that this 
whole thing about--I mean, there were thousands and thousands 
of people fighting alongside us, and as well as just fighting 
for their own country. They just unfortunately weren't eligible 
under the criteria that were established, you know, under the 
command of MacArthur and all those--the rest of those five 
things.
    [The information referred to can be found in the Appendix 
on page 91.]
    Dr. Heck. Thank you. I will yield back the balance of my 
time. And we now will go to Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. I--well, I would 
like to start off by recognizing Major General Taguba, who is 
here in the audience. And thank you for your many, many years 
of dedicated service, not just to this country, but your 
leadership on this issue.
    I am absolutely astounded, gentlemen. These men are dying. 
These men did not wait when the United States asked for help. 
They stepped forward immediately and volunteered to serve. Why 
are we making them wait 70 years?
    Mr. Flohr, I am sorry, is that how you pronounce your name? 
Thank you. What is the backlog? What is the total number of 
claims that are pending right now waiting to be approved or 
having a decision?
    Mr. Flohr. Are you asking about backlog itself or the total 
number of claims pending?
    Ms. Duckworth. The total numbers of claims pending from 
Filipino veterans or veterans trying to access this 
compensation.
    Mr. Flohr. Ma'am, I am not aware of--as I have said in my 
statement, we have completed all original applications.
    Ms. Duckworth. Okay. How many are on appeal?
    Mr. Flohr. There are 19 reopened claims that, as they have 
been able to furnish additional evidence, that we are looking 
at. And there were 31 on appeal in the Veterans Benefits 
Administration, 48 of the Board of Veterans Appeals and 16 at 
the court.
    Ms. Duckworth. How many have been denied?
    Mr. Flohr. 23,000-plus.
    Ms. Duckworth. 23,000-plus, okay. Mr. Levins, do you know 
how many are waiting to be looked at that have that Form 23, 
but have not--we have not found the piece of paper or maybe it 
is a rock that somebody has chiseled in this information into 
one of these--I mean, archaic doesn't even begin to describe 
the process that you are explaining to me. But how many are 
stuck in this limbo where we are still trying to marry up the 
two different--the Form 23 and the whatever records there are?
    Mr. Levins. There are very few pending with us. We--this 
morning I called in to the office and I think the number 
wasn't--was 40 something, and they dated back from like mid-
June. We recognize the urgency of this request. And we are 
trying to respond as quickly as we can. And year to date, this 
fiscal year, I think our response time is like 8\1/2\ business 
days, we get the information back to the VA.
    Ms. Duckworth. Okay. So there is $50 million in the 
account, and we are quibbling with these men, less than 200 men 
probably, who have been denied, who are on appeal, waiting for 
them to die so this goes away. And we are quibbling over--
what--$1.5 million if they were all approved, is that what we 
said it was going to be Mr. Flohr--if they are all approved?
    Mr. Flohr. The estimate is approximately $1.7 million, yes.
    Ms. Duckworth [continuing]. $1.7 million; there is $50 
million in the account, there is $1.7 million, and we are 
quibbling with them over this. And we are just basically 
dragging our--we are just waiting for them to die, which is 
unconscionable, because they were not waiting for Americans to 
die before they came forward to help.
    And General MacEwen, I understand what you are saying about 
the record keeping and the very clear directive from General 
MacArthur. But we have to also remember that the United States 
Army and the United States itself at that time had some racist 
tendencies. And that some of those decisions may have been not 
necessarily based on the actual facts of how these men served. 
We had our own Senator, a great Senator, Daniel Inouye had his 
Medal of Honor downgraded to a Silver Star simply because of 
his race. And he was not the only one. And the Asian-Americans 
have seen this time and time again.
    I have also seen it in Iraq many instances, and I deal with 
this in my own congressional service of veterans coming forward 
who have not had records kept on their service who are trying 
to get a Combat Action Badge [CAB]. In fact the members of my 
own crew who were blown up with me, two of them did not get a 
Combat Action Badge because they said they were told there was 
no proof. Yet, they were in the same aircraft with me. And I 
had to intervene in order to get them their CABs.
    So let's not talk about how great the Army's record keeping 
is because as best as the Army does, we all understand what 
happens in a wartime situation. I just think it is ridiculous 
that we just don't approve these, get these men their 
compensation and then audit. We are punishing the majority of 
folks because we think that some of them are cheaters. I am 
sure there are cheaters out there. But we should go after the 
cheaters through an audit process. I don't understand why we 
don't just approve it, thank them for their great service, in 
addition to their nation, but for the great nation--for the 
United States, as well. And I am sure that the Americans whose 
lives they saved would want that to happen. I yield back, Mr. 
Chairman.
    Dr. Heck. Thanks, Ms. Duckworth. You know, just quick, of 
the initial claims that were denied, do you know how many, what 
percentage were then approved on appeal?
    Mr. Flohr. Yes, sir, Mr. Chairman; approximately 10 
percent, 150-plus as of May of last year. I don't believe there 
would be much more than that. I don't have that number as of 
today. But there are only 31 still pending in the VA.
    Dr. Heck. Okay. Thank you. And I want to echo, you know, 
Ms. Duckworth's comment is that, I understand the record 
keeping, and I understand everything that was tried to be done 
back in 1942 to 1948 with the reconstructing rosters. But it 
would seem that if somebody comes in with an AGO 23, that has 
got a stamp on it, you know, stamped by the U.S. Government 
certifying they have served, that it should be the document 
that qualifies the individual for service. And we have a piece 
of legislation that is trying to do that. And we are going to 
see if we can continue to push that. I know that will make it 
much easier for you, General. I understand you are just 
interpreting the law and the regulations as they are written. 
And we have got to take the steps necessary to open up that 
pathway for more Filipino veterans.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman. I too would 
just like to recognize my colleague Ms. Duckworth, and echo her 
comments about really understanding that this piddling over 
details when we are talking about constituents of ours, 
veterans who are here today, who are literally dying as they 
are waiting for the bureaucracy to recognize their service 
after decades and decades of waiting.
    The other issue I think that we need to address is this 
one-stop opportunity of saying that you have until this date, 
and that is it, and then the door is closed to you when clearly 
there are still many more issues that need to be dealt with and 
recognized in verifying and recognizing their service, and for 
those who maybe didn't get the message or who were not able to 
put their claims in before that 2010 date. And again, the 
resources are there, they have been allocated to be able to 
recognize them.
    I have a question about how helpful the Philippine Army 
documents have been in being able to successfully turn around 
some of the appeals or some of these claims in verifying 
records of service or whoever would like to take that question?
    Mr. Flohr. Thank you, Congresswoman. I think I stated 
earlier, it was because something like 450 appeals had been 
granted on further review when we were able to contact the 
individual, the veteran, and find out that they had served 
under a slightly different name. And when we sent, we are able 
to use the name that they had served under which was somewhat 
like I said, they used their middle name, which they don't use 
now. And we were--just to be able to send that to NPRC, they 
were able to then find the individual on the roster as a 
recognized guerrilla, and we immediately granted that benefit.
    Ms. Gabbard. And those 450 overturned claims, that was 
because the veteran had appealed after they had been rejected?
    Mr. Flohr. Yes.
    Ms. Gabbard. So you have 24,977 applications that have been 
disapproved which is a few--what--6,000 more than have been 
approved. Has your organization gone through, yourselves, at 
those that are disapproved to see what other veterans who may 
not have filed an appeal will face the same situation where it 
may be a slightly different name, which is basically a clerical 
error?
    Mr. Flohr. I can't say that we have. The numbers that have 
been denied, as I said in my opening statement, many of those 
were from children, and grandchildren, and uncles and aunts, 
and deceased, you know, survivors of deceased veterans, and 
they are not entitled under the law to that benefit. And we 
have duplicates, many, many thousands of duplicate claims 
filed.
    Ms. Gabbard. Do you know what percentage----
    Mr. Flohr. That all goes into that 23,000.
    Ms. Gabbard. What percentage of those disapproved claims 
were from family members versus the veteran themselves?
    Mr. Flohr. I am sorry, I don't have that number. But, you 
know, it has been a large number. But the efforts to get the 
word out, like John Skelly did on that video, regional office 
personnel in Manila, from the day the law was passed, they 
started going out to all the provinces, there are like a 
thousand islands that make up the Philippine Islands. They went 
out to all of the provinces, they partnered with the Philippine 
Veterans Affairs Office, they held intake--they took claims on 
the islands that they visited, they had them come to--they went 
to Memorial Hospital, VA Memorial Hospital, took claims from 
patients there at the hospital. They did all--they did outreach 
up until the last day of the filing period that ended. So there 
may be some that didn't hear about it. But I think they did 
pretty much all of the outreach they could have done.
    Ms. Gabbard. And I think there are also many Filipino 
veterans who are not residing in the Philippines, which is a 
point that needs to be recognized. And to do justice for these 
veterans, for clerical errors which they had no part in, it 
seems the least you could do is to go back and review their 
applications, which are disapproved through no error of their 
own, to correct them and not sit around and wait for them to 
file those appeals. I yield back.
    Dr. Heck. Mr. Flohr, if you could take that question for 
the record, percentage of the denials that were the family 
members versus the veterans themselves?
    Mr. Flohr. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 91.]
    Dr. Heck. Thank you. We will now recognize Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you. This issue to me is 
more than, than vexing. We make mistakes as a government from 
time to time. Ones we deeply regret. I would hope that one of 
the mistakes that we deeply regret is telling the Filipinos who 
served with us in World War II that they would be treated like 
veterans at the end of their service, and then rescinding that 
promise after the war, would be something we would regret, and 
if so, we would want to fix. It is the only group of nationals, 
of many groups of nationals that served with us across the 
world, that were given that pledge that then had it reneged on. 
And that is pretty shameful. So for us to now go through this 
process where we are only talking about giving $15,000 in 
benefits or $9,000 of benefits.
    And basically of all those who have applied only 20 percent 
have actually been approved, which would suggest that 80 
percent of the applications were by people who were lying, who 
were just trying to rip off the American government. I mean, I 
find that pretty preposterous that we would have that kind of 
presumption. And to Ms. Duckworth's point of presuming they are 
truthful until proven otherwise, would seem to make a lot of 
sense.
    Now one of the complicating factors is that there was fire 
that burned a lot of records. And we somehow just disregard 
that and presume like it didn't happen I guess. But the truth 
is many of those Filipino Scouts were probably on that list and 
there is this sense of well we think we've kind of recreated 
it.
    So I am really troubled by this, this really I think, 
embarrassing process that we are going through where we've got 
boxes of records that we are flipping through and trying to see 
if we can somehow identify people and then going through index 
cards. I mean it is pretty laughable at this point when if you 
go back to the original supposition it was that they were going 
to get full veterans benefits and then we reneged on that.
    So shouldn't we be erring on the side of providing the 
benefit to the few remaining Filipino vets that are alive? I 
mean we already know the numbers are really reduced. So my 
question is, can you administratively reopen the application 
time period without legislation?
    Mr. Flohr. Ma'am, I do not believe so. Not without 
legislation, no.
    Ms. Speier. So you couldn't by regulation do that?
    Mr. Flohr. No.
    Ms. Speier. In the statute itself?
    Mr. Flohr. It is in the statute, yes.
    Ms. Speier. All right. According to the VA some records for 
the New Philippine Scouts were damaged or destroyed in the 
fire. However, in most instances the service department can 
verify New Filipino Scout servicing using alternative methods--
that is a quote from the VA. So the presumption is even though 
these records were burned, we can pretty much figure out who 
they were even though the records were burned.
    So I am kind of confused by it. How many individuals does 
this impact and how did you make the assessment given that the 
documents were destroyed?
    Mr. Levins. I think that statement came from the VA, but I 
would like to clarify a little bit about the fire and the 
impact. Last fiscal year we were seeing about 2,500 requests 
related to service in the Philippine Army or as a guerrilla or 
as a Scout.
    The majority of those were guerrillas or else people 
claiming to have served in the Philippine Army; a very, very 
small number were Scouts. If you were in the Philippine Scouts 
you were actually inducted into the regular army and you would 
have had a military personnel record just like any other member 
of the army.
    And that is why if you were in the Scouts your records 
would have been stored among the records of World War II 
service men and could have been damaged or lost in that fire. 
As far as the collection of the guerrilla rosters and the claim 
folders that I have been speaking about, those were not 
impacted by the fire.
    Ms. Speier. So what is the harm done at this point in 
granting these pending applications and having a claw-back 
opportunity, if in fact it is determined that they are not 
legitimate?
    Mr. Flohr. Congresswoman, we are--unfortunately we are--
saying unfortunately--we are subject to laws and regulations 
that describe and direct how we process claims. If a veteran 
from World War II who served in Europe, an American veteran who 
now came forward--and they are still living of course--veterans 
come forward at this time and file a claim for anything--a 
disability that they incurred, say they incurred in World War 
II, and we have never received anything from that veteran in 
the past, we would have to go through the same process we are 
going with this. And so we have to contact NPRC if we didn't 
have a DD-214 or they didn't provide, a veteran could not 
provide one to verify the service.
    Everything starts with service verification. In order to 
receive benefits you have to have verified military service.
    Ms. Speier. Well, I know but let's be--my time is up, Mr. 
Chairman and I will--if you are going to do a second round, I 
will ask questions on the second round.
    Dr. Heck. We're going to have time for second round--on 
this panel because we have the second panel. We have votes 
again at 4:40. So I think with Ms. Tsongas, did you have one? 
Okay, all right, Ms. Bordallo, yes.
    Ms. Bordallo. Thank you very much, Mr. Chairman for calling 
this hearing. And frankly I am disheartened and embarrassed by 
what I am learning today. I am from Guam so, ``mabuhay.'' And I 
salute all of the veterans, and I know there has to be a few 
veterans in the audience today.
    And most of my constituents on Guam are Filipinos. We went 
through World War II, one of my first pieces of legislation to 
be introduced into Congress was the war claims for our people. 
People from the commonwealth of the Northern Marianas received 
claims; we never received any claims for what we went through, 
and we were occupied just as the Philippines for 4\1/2\ or 
about 4 years by the Japanese.
    It is going through the House, the bill, and approved five 
times but just last week again, it was denied by the Senate, 
even though I found an offset for these claims. So I know what 
you are going through and frankly, I am shocked. I really am.
    I thought we did--I was part of the legislation that gave 
benefits to the Filipino veterans, health benefits, and so 
forth. But I didn't know that all of this existed. Now from 
what I hear 2 million claimants in--is that true that you 
started out with as many as 2 million? I thought I heard that 
here.
    General MacEwen. Ma'am, when we did the original 
verification--it was 1.2 million.
    Ms. Bordallo. 1.2 million, all right. And thousands and 
thousands were denied. And I go along with Congressman 
Duckworth here, how many are alive? I don't have many veterans 
left in Guam you know, now; I mean they are in their 80s and 90 
years old. Now I am suggesting in fact with your records how 
many of those original claimants are still alive? You have 
those figures?
    Mr. Levins. No, we would have no way of knowing.
    Ms. Bordallo. No, we have no way of knowing. Well, I am 
sure that many of them are gone. Now I am suggesting that we 
have to go through legislation again to renew this because 
your--you said it is--time is running out, is that correct? 
When is the last?
    Mr. Flohr. Congresswoman, the period ended in February of 
2010.
    Ms. Bordallo. Oh my, okay. So we probably will have to go, 
and I am suggesting that for all of those who originally 
claimed and have died, that perhaps this small amount of 
$15,000 or $8,000 could be given to at least one survivor. And 
we can legislate this to use up this money that is sitting in 
this account. And right now if you took care of all the 
claimants what, it would only come to about $1 million or $2 
million, is that correct? And you--it is $50 million in the 
account?
    Mr. Flohr. Yes, ma'am. And if a veteran filed an 
application for this benefit and before it was--a decision was 
made and it was granted, died, if he had a surviving spouse, 
she would be eligible for the----
    Ms. Bordallo. That is part--well I suggest we go back and 
take a look. And certainly those survivors are still there, 
aren't they?
    Mr. Flohr. Well, I am sure that they are. And the veteran, 
on his application would have indicated he was married and we 
would have reached out to his surviving spouse and made that 
payment.
    Ms. Bordallo. Well, Mr. Chairman, I am just, you know, I 
have been through this now for 12 years here in the Congress, 
trying to work for the people on Guam. And incidentally, we 
have a number of Philippine Scouts on Guam. Most of them have 
passed on.
    So, this is truly sad. And I think we ought to look and 
maybe open this up again, if there is money there, and continue 
to work on trying to find the few that are left, and perhaps, 
give some kind of compensation to the survivors to appease the 
Filipino people.
    I think this is truly--I am embarrassed and I just think it 
is wrong. They were there; they fought with us, many of them 
died. And we promised and we haven't held out on that.
    So, Mr. Chairman, with that, I yield back.
    Dr. Heck. Thank you, Ms. Bordallo. Thank you for taking the 
time to participate in today's hearing.
    All right, gentlemen, we appreciate your testimony, 
realizing that you are just the messenger and that you are 
interpreting the regulations and the law as it was written. And 
it is incumbent upon us to make the necessary changes to be 
able to continue to try to expand the benefit--to get to those 
that rightfully deserve.
    So again, thank you for your service and thank you for 
being here today. And thank you for your testimony.
    So what we will do now is we kind--we will move into the 
second panel. And as we are flipping the panels, I will 
introduce the next set of witnesses. We have Mr. Celestino 
Almeda, who is a 97-year-old Filipino-American World War II 
veteran and an SVEC claimant. Mr. Jesse Baltazar, who is also a 
Filipino Veterans Equity Compensation Fund claimant. And Mr. 
Eric Lachica who is the son of a Filipino-American veteran and 
serves as the executive director of the American Coalition for 
Filipino Veterans Incorporated. As well, we have other 
distinguished Filipino veterans in the audience with us today. 
And I thank you, gentlemen, for being here.
    We will hear a testimony from the witnesses in the order 
that I just named them. Mr. Almeda, whenever you are ready, you 
may begin.

    STATEMENT OF CELESTINO ALMEDA, FILIPINO VETERANS EQUITY 
                   COMPENSATION FUND CLAIMANT

    Mr. Almeda. Good afternoon, Mr. Chairman and members of 
this committee. My name is Celestino Almeda, a 97-year-old 
Filipino-American World War II veteran. I am the spokesman of 
the American Coalition for Philippine Veterans advocacy 
national organization. I reside in Gaithersburg, Maryland.
    I have walked the halls of Congress together with a few 
dedicated veterans and volunteers over the past 15 years. We 
seek justice, honor, recognition, and equitable benefits for my 
comrades and their dependents.
    In the years past, we had joined Senators Daniel Inouye, 
Daniel Akaka, as well as Congress Members Ben Gilman, Bob 
Filner, Mike Honda, Darrell Issa, and Nancy Pelosi in countless 
hearings to pass several bills.
    In addition, we had been arrested in front of the White 
House to get the attention of George W. Bush. Pictures 
presented when we were chained at the fence of the White House.
    Thus, it is my honor to testify before this committee on 
the eligibility problems my comrades and I faced when we 
applied for Filipino Veterans Equity Compensation benefits. 
Allow me to use my case as an unfortunate example.
    The VA Department and the U.S. Army had repeatedly denied 
my requests for official recognition and my application for the 
Filipino Veterans Equity $15,000 veteran's benefit in minimal 
amount.
    Allow me to tell my story. I was a vocational industrial 
arts instructor in a high school in the Philippines before the 
World War II. The Philippines was then a commonwealth territory 
of the United States. I was a national--a U.S. national who 
pledged allegiance to America.
    In anticipation of hostilities with Imperial Japan, 
President Franklin Roosevelt ordered on July 26, 1941, the 
Philippine Commonwealth Army into the service of the Armed 
Forces of the United States, later named USAFFE, or U.S. Armed 
Forces in the Far East.
    When the war was started, I was a ROTC graduate and in a 
Reserve Officer Training Corps. Thus, I was inducted into the 
active duty in December 1941, in the Anti-Sabotage Regiment in 
the Philippine Commonwealth Army Forces.
    After the fall of Bataan and Corregidor, I joined the 
Filipino guerrillas. When the war was about to end, I reported 
for processing at Camp Murphy, now Camp Aguinaldo, and was 
mustered and given my discharge papers by the U.S.-Philippine 
Commonwealth Army personnel on April 2, 1945, with AS number 0-
34642 by U.S. Army Lieutenant John B. Staples, summary court 
officer.
    Later, I returned to military control and was assigned to 
the Construction Corps of the Philippines, a U.S. Army Engineer 
Corps. I had meticulously kept service records of my USAFFE, 
Philippine Army Special Orders in 1941, 1942, and 1945 from my 
Philippine Army and American officers with payment records from 
the Philippine Commonwealth Army Headquarters.
    Let me show you a portion of my records. They are brown in 
color, crispy to be broken upon handling. I used these 
documents as evidence when I applied for U.S. naturalization 
based on my USAFFE military service under the 1990 Immigration 
Law.
    This is my first U.S. passport issued in Manila in 1996. 
And with the same record, I got my universal access card to the 
VA hospital; this is my access card.
    To make it short, I contested this NPRC decision with the 
help of a prominent immigration lawyer in Los Angeles and 
USAFFE documents I had. After appealing, as I have said, I was 
granted citizenship. In 2003, after George W. Bush signed the 
healthcare for Filipino veterans, I applied for VAI hospital 
identification card--that I have shown already my international 
card.
    Incredibly, despite this crucial U.S. Army personnel 
account provided by the NPRC, the VA Board of Appeal decided on 
February 27, 2013, to deny my FVEC application based on a 
faulty legal opinion of their VA general counsel.
    I have elevated my disagreement with the VA to the U.S. 
Court of Appeals for Veterans Claims. I am waiting for a 
decision up to now. I truly believe I have satisfied the 
provision of the law by filing my claim within 1-year period 
from the enactment of the law. I have complied with all the 
requirements for payment that are documents were issued by U.S. 
military department and contained the needed information as to 
length, time, and character of service and my documents are 
genuine and contain accurate information.
    I have submitted to the VA the following key documents 
about my service: USAFFE Adjutant General Office Form 23, 
affidavit for military personnel, signed by American officer 
Lieutenant John Staples, dated April 2, 1946; officers and 
warrant officers qualification card from my file; U.S. 
Department Form 336 Revised--Revised Pay and Allowance Account; 
affidavit from my USAFFE comrades, who attested to my service; 
and U.S. Armed Forces Recovered Personnel Division (PHILRYCOM) 
document of my missing person status and USAFFE service by NPRC 
on March 19, 2012.
    In closing, I stand to challenge any government agency or 
private institution with expertise regarding this matter to 
declare my documents fraudulent and I am ready to be punished 
to the full extent of the law.
    I look forward to answering your questions. Forgive me if I 
cannot hear you well. I am not as young as I want to be.
    Mr. Chairman, thank you again for your opportunity before 
your committee. In addition, personally, I will directly say 
that NPRC is not a service department. And there is no contract 
between the Army and the NPRC, but the records are from a 
service department.
    [The prepared statement of Mr. Almeda can be found in the 
Appendix on page 49.]
    Dr. Heck. Thank you, Mr. Almeda. Thank you. Now, hear from 
Mr. Baltazar.
    Mr. Baltazar, you have 5 minutes, if you can, to keep your 
statement.

     STATEMENT OF JESSE BALTAZAR, FILIPINO VETERANS EQUITY 
                   COMPENSATION FUND CLAIMANT

    Mr. Baltazar. Good afternoon, Mr. Chairman and the members 
of the committee. My name is Jesse Baltazar. I am 93 years old, 
American World War II veteran of Korea and Vietnam. I am a 
member of the American Coalition of Filipino Veterans advocacy 
national organization, where Mr. Lachica is the chairman.
    On behalf of my comrade here, I am here today--may I thank 
you for asking me to be here today and recommend solutions to 
these eligibility problems of other thousands of surviving 
Filipino World War II veterans.
    I am here to support my friend, Celestino Almeda in his 
fight for the original recognition for the U.S.--United States 
Army and the VA. I have known Mr. Almeda for the past decade 
and worked with him in several veterans association.
    Even these days, thousands of Filipino veterans who served 
in Bataan like him are still fighting for his rights and for 
the benefits for the $15,000 veteran's benefits. I was an 
exception because I kept all the records, my original records 
in my possession, needed to satisfy the entitlement for those 
benefits.
    This is an injustice, Mr. Chairman. Even President Truman, 
in his letter to the president of the Senate and the Speaker of 
the House in November--in May 15--May 18, 1945, stated the 
records of the Philippine soldiers for bravery and loyalty is 
second to none. And that there can be no question that what the 
Philippine veterans is entitled to benefits to very reasonable 
relation to those recovered--received by the American veterans 
with whom he fought side by side.
    First, I would like to introduce myself. I am a retired Air 
Force major. I was born in Manila, Philippines. I began my 
career in 1941 when I was inducted in the United States of the 
Armed Forces in the Far East, USAFFE as we call it.
    I was a POW [prisoner of war] and a survivor of the 
infamous Bataan Death March. After the war, I came to the 
United States to continue my military career. Upon arrival in 
San Francisco in 1946, I re-enlisted in the Army. I was the 
first and only U.S. inductee on record who did this.
    In 1945, I was commissioned as a Second Lieutenant in the 
United States Air Forces being--I served in the United Air 
Force for 20 years assigned primarily overseas with the Office 
of Special Investigations of the United States Air Force. I 
served as a Russian interrogator in Korea, and Berlin, Germany.
    After each--after which--after retirement from the 
military, I worked in the State Department starting in 1966 and 
continuing to the present time. I am still considered the 
oldest employee of the State Department. I began in Vietnam as 
a deputy provincial advisor in Region IV and currently, as a--
currently, my job as a construction security commissioned in 
the State Department.
    I graduated from Georgetown University in 1955 with a B.S. 
degree in languages and linguistics. In 1979, I received my 
Masters in education from the University of Virginia.
    I fought in the battle of Bataan in 1942. I became a 
prisoner of war of the Japanese when the Americans surrendered 
in April 9, 1942. I was wounded and injured during combat. I 
survived the Death March. When I escaped with Filipino 
fishermen who smuggled me and a comrade in the middle of the 
night through infested swamps of Bataan.
    I was determined to do whatever it took to survive 
individually. The thought of not surviving never occurred to me 
even in Korea or Vietnam, even with that bomb that went off in 
our company.
    I am one of the few 80,000 Filipinos who walked in the 
infamous Bataan Death March in April 1942. Of this number, 
25,000 men, women, and children lost their lives. We suffered 
brutal and inhumane treatment from the Japanese soldiers aside 
from the malnutrition, dysentery, malaria, beriberi, and 
exhaustion. We were fed only a cup of boiled rice with a few 
flakes of salmon each day. Then, we laid down on the filthy 
bare ground of the compound at the mercy of the mosquitoes, 
scorpions, leeches, ants, and crickets.
    Over 100,000 Filipinos of the Commonwealth of the Army 
fought alongside the other allies to reclaim the Philippine 
Islands from Japan in the name of democracy. We served as 
courageously as our counterparts during the Pacific War.
    Our contribution helped to disrupt the initial offensive 
timetable in 1942 at--for 90 days, Philippine Army and American 
soldiers, despite shortage of food, lack of ammunition, 
obsolete and malfunctioning military hardware, and hostile 
jungle terrain, had battled the well-equipped invading Japanese 
Army.
    Without the assistance of the Filipinos units, liberation 
of the Philippines would have taken much longer and with 
greater casualties of the United States.
    We suffered brutal and inhumane treatment from the Japanese 
soldiers, aside from the malnutrition again and the different 
diseases. We were all--I lost my brother--my older brother and 
my younger brother when they fought the Japanese. My two sons, 
Melchior and Thomas, are here. Thomas is a former U.S. Army 
Officer and my son, Melchior, a U.S. Navy Seal.
    For my World War II service in the Philippines Army 
soldier, I was awarded the $15,000 Filipino Veterans Equity 
Compensation in April 19--2010. However, that was not easy. I 
was initially denied when the Department of Veterans Affairs, 
when they said the NPRC did not have any records in their 
possessions.
    It was only after I found the following records in my 
possession to these days. One, the Philippine Army Discharge 
Certificate dated 24 May 1946; two, Army of the United States 
Discharge Certificate dated 12 December 1946; three, Report of 
Medical Examination dated 23 February 1966; Verification of 
Military Retiree in Service Non-Wartime Campaigns and 
Expeditions dated 27 March 1975.
    Mr. Chairman, I respectfully request that the VA Secretary 
should recognize the deserving claimants of the 4,500 remaining 
who have appealed to the VA denials of officials as they show 
or one of them my comrade here, Mr. Almeda.
    Philippine Commonwealth Army, authentic discharge military 
papers as certified by the Philippine Government Veterans 
Affairs Administration or Adjutant General's Office. Filipino 
guerrillas whose names are on the recognized roster agreed by 
the U.S. Army and provide proof of their identity as certified 
by the Philippine Government Veterans Affairs Administration or 
Adjutant General's Office. Have no significant information, 
questioning their loyalty--their loyalty during World War II.
    Dr. Heck. Mr. Baltazar, I have to ask you to try to close 
up if you can, so we can get to Mr. Lachica and ask some 
questions. I hate to do that to you sir, but you need to kind 
of finish up if you could with your statement.
    Mr. Baltazar. Pardon me.
    Voice. Finish your presentation.
    Mr. Baltazar. Application?
    Voice. Finish your presentation.
    Mr. Baltazar. Oh, yes, yes, yes. Mr. Chairman, I ask 
respectfully request that VA's Secretary should recognize the 
deserving claimants of the 4,500 remaining veterans who have 
appealed to the VA--appealed, the denials of the VA officials. 
If they show a Philippine Commonwealth authentic discharge 
papers as certified by the Philippine Government Veterans 
Affairs Administration or General Office.
    Filipino guerrillas whose names are on the recognized 
roster agreed to by the U.S. Army and provide proof of other 
identity as certified by the Philippine Government Veterans 
Affairs Administrators or Administrative Office.
    These two requirements must be met before their 
applications may be heard. I look forward to answer the 
questions, Mr. Chairman.
    [The prepared statement of Mr. Baltazar can be found in the 
Appendix on page 57.]
    Dr. Heck. Thank you Mr. Baltazar. Mr. Lachica, we will look 
to you to wrap it up for the panel and then, we will get you 
some questions.

    STATEMENT OF ERIC LACHICA, EXECUTIVE DIRECTOR, AMERICAN 
             COALITION FOR FILIPINO VETERANS, INC.

    Mr. Lachica. Thank you. Good afternoon, Mr. Chairman and 
Ranking Member Tsongas and members of the committee. My name is 
Eric Lachica, volunteer executive director of the American 
Coalition for Filipino Veterans, a non-profit organization 
based here in Arlington, Virginia.
    Over the past two decades as Mr. Almeda said, we have been 
lobbying Congress with the help of our champions, Daniel Inouye 
in the Senate and Senator Akaka, and their colleagues in the 
House. I would like to recognize, sir, Congressman Benjamin 
Gilman who has been a big champion of a Filipino--champion for 
the World War II veterans and Bob Filner and Daryl Issa and 
sympathetic staff of the White House of the Clinton-Bush 
administrations and to all the Members here who have been our 
sponsors over the years for our bills in Congress.
    We would like to thank our allies, the VFW [Veterans of 
Foreign Wars], American Legion, and DAV [Disabled American 
Veterans] and community partners like the National Federation 
of Filipino-American Associations that led to victories like 
full burial benefits in 2000, full war-related disability 
compensation in 2001, and VA healthcare in 2003, and the 
Filipino Veterans Equity Compensation Law in 2009. And many of 
you were there to help get those bills passed.
    So it is my honor to help Mr. Almeda and Mr. Baltazar in 
this--in the interest of their comrades who are not here today 
and the sons and daughters who are in the room with us. The 
eligibility issue at hand is very dear to me because my dad 
also got a hard time when he was alive getting healthcare 
benefits back in the 1980s. Luckily for us because of the laws 
we passed earlier, he and my mom are buried in National 
Cemetery in Riverside, California, in the National Cemetery, 
thank you very much.
    So, I would like to just jump as--you have my written 
testimony and to address two issues, which I think will go to 
the heart of the matter. Mr. Almeda's case is a classic example 
that happens to many of our veterans. He has full documentation 
and we just realized over the past weekend why the Army directs 
the NPRC, the National Personal Records Center to deny service.
    And this--I explain this in my email to some of your staff. 
For one thing even if they--for example this document, the NPRC 
documents of Mr. Almeda, which we only got 2 years ago. This 
was withheld from Mr. Almeda over the past 20, 30 years. I was 
trying to figure out, why was the NPRC who were instructed by 
the Army not to do so.
    It is in my opinion, thanks to the earlier research done by 
the interagency working group of the White House in de-
classifying that U.S. Army recognition process, which was 
secret. I think we know why now, this afternoon, for one thing 
Mr. Almeda got this in his records in NPRC, it took us almost 3 
or 4 years just to get that in 2012.
    It says, Mr. Almeda who got on the Recovered Personnel 
Division was supposed to be issued his document. All right, it 
says right there, subject individual was a member of the 
Philippine Army ordered into the service of the Armed Forces of 
the United States.
    Okay. Why was--why did NPRC not give this to Mr. Almeda 
until 2 years ago? It took the [unintelligible] of the 
Philippine Embassy, we had to personally appeal to the Mr. 
Levins and Mr. Scott there, to give Mr. Almeda his records. 
They confirmed that there were records, all right.
    And one thing about this record is that it confirms 
something amiss. Mr. Almeda was supposed to be paid. He was 
supposed to be paid 3,000 pesos for his back pay. And a check 
was issued, item number three, of 6,000 pesos. That is a lot of 
dollars back then. That is about $3,000, 1948 dollars, okay.
    Guess what? Never--Mr. Almeda never got that check or got 
paid for his back pay.
    Mr. Almeda. Who are they--who received this money? I didn't 
receive it, I don't have it in my record.
    Mr. Lachica. And we only realized this weekend, when we 
were doing our research. Who is this C.D. Sullivan, who was the 
Assistant Director of the Camp Murphy? He had to file this 
form. Who got the money? Where is the check?
    Now that is one issue. The bottom line here upon research, 
thanks to the efforts of the interagency working group, the 
White House, and General Taguba in the room. They finally got 
out--they got this de-classified, the U.S Army Recognition 
Program, the Philippine Guerrillas.
    You know, why there are so many Filipino veterans in my 
opinion are being denied because some of their American 
officers who served--who recognized them got into a fight with 
U.S. Army. These four names mentioned, and guess what, those 
four American officers, their Filipino soldiers were 
recognized, were paid, then the recognition revoked and that is 
the bottom line of the U.S. Army de-classified report.
    One of them was one of our leaders, Colonel Edwin Ramsey, 
he is a World War II hero. He was the last American cavalry man 
to lead a charge against the Japanese invaders on a horse in 
the Philippines. He was buried in the National Cemetery in 
Arlington Cemetery last year.
    He has a Filipino wife in Los Angeles and guess what, 
because of that Army in-fighting back then about who is going 
to be recognized, they claim this secret U.S. Army recognition 
program document that Mr. Ramsey engaged--what does it say 
here--of fraud basically of getting Filipino veterans.
    The guy is dead, all right. And he is a hero. They could 
have resolved this, but why did they keep it secret? Why did 
they keep Mr. Almeda secret or is the general here? Is he 
still, you know--he should answer these questions; why did the 
Army come out with a recognition program with no authors?
    There are no authors on this document, which basically 
revokes recognition of at least 40,000. It says right there--
24,000 of Colonel Ramsey's folks and almost 35,000. See that 
is--I think a big, big issue that they haven't been upfront 
about us. They could have told us, ``Hey, if you are affiliated 
with certain American officers like Colonel Ramsey, you might 
have been recognized in 1945, 1946, 1947.'' Guess what, they 
were taken off the list--so-called list, these guerrillas.
    Now, I just want to bring this to attention of the 
committee, we have to get straight answers, we can't afford the 
Army to besmirch the reputations of at least 40,000 Filipino 
veterans. Who have--many of these who have applied and were 
denied.
    So, I would like to close, Mr. Chairman, we would like your 
committee to investigate this issue further. Why the Army have 
been making all of these secret allegations against World War 
II heroes like Colonel Ramsey. Denying Filipino veterans a copy 
of their records that they have, saying it is not compatible 
with our archives.
    We had to complain to President Obama himself, to the Vice 
President which Mr. Almeda met with, to get the attention of 
NPRC. I would like to recognize Mr. Levins and Scott for taking 
pity basically on Mr. Almeda, of releasing his folder because 
they knew that something was amiss, the NPRC.
    That the Army was not treating our veterans right. So, I 
would like to appeal to the committee that look into this, that 
is 40,000 of us of our veterans. Thank you very much, sir.
    [The prepared statement of Mr. Lachica can be found in the 
Appendix on page 64.]
    Dr. Heck. Thanks Mr. Lachica. And I want to thank both of 
the gentlemen who provided testimony for their service. Mr. 
Baltazar, I can only hope I look half as good as you do when I 
hit 93. But thank you for your service, thank you for taking 
the time to be here to tell your stories and to put a face to 
this problem that we are trying to tackle here on this 
committee.
    I have no questions for the panel. I yield my time to Ms. 
Tsongas.
    Ms. Tsongas. Yes. I want to thank you, Mr. Almeda and Mr. 
Baltazar, for making so very real in your testimony the issues 
that we have been trying to address here today. And I want to 
thank Congressman Heck for organizing and holding this hearing, 
and it obviously merits further attention. And I thank you so 
much for being here, but I also have no questions.
    Dr. Heck. Ms. Duckworth.
    Ms. Duckworth. I also have no questions. But I wanted to 
thank Mr. Almeda and Mr. Baltazar for being here today and for 
your hard work. You are still looking out for your buddies and 
your comrades and I thank you for that, and I am just deeply 
awed by your presence.
    Dr. Heck. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. And I too would like 
to go on any kind of if we decide to introduce legislation to 
expand this, to look at it again, because as they said earlier 
really, by law it was finished at 2010, is that correct?
    Yes, no longer. I want to thank Mr. Almeda and Mr. Baltazar 
and of course, you, Mr. Lachica, for your testimony. And it is 
really shocking to hear that, you know, you have records here 
that show moneys and checks to be distributed and nothing was 
done.
    I mean, it is--I am sure Mr. Chairman will be looking into 
this. And Mr. Chairman, I would like to be a part of any 
legislation that is introduced, to be a part of it because I 
have so many Filipino friends on Guam and----
    Dr. Heck. Okay. There being no questions, I want to thank 
everybody for attending and for your participation. We will 
continue to look into this matter. The hearing stands 
adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             June 24, 2014


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 24, 2014

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 24, 2014

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 24, 2014

=======================================================================

      
              RESPONSES TO QUESTIONS SUBMITTED BY DR. HECK

    General MacEwen. Civilian guerrillas are eligible for the Filipino 
Veterans Equity Compensation provided they meet the criteria 
established by the Army for Philippine Guerrillas, which means the 
claimant served full time in a unit that was recognized by the Army, 
and there is a claim folder and roster on file to verify service. The 
Adjutant General Office Form 23 includes a box check for Civilian 
Guerrilla which allows a claimant to request verification of service 
based solely on this status.   [See page 13.]
    Mr. Flohr. In February 2010, the Manila Regional Office began 
manually tracking reasons for denial of FVEC claims. However, the 
Manila RO does not record whether FVEC claims were filed by Veterans or 
family members. Obtaining this information would be cost-prohibitive, 
requiring a manual review of over 23,000 FVEC claims that were denied.   
[See page 16.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 24, 2014

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. You advocate for this committee to produce 
legislation that directs that alternative documentation should be 
recognized, and standardized criteria should be set to verify service 
for payment under the FVEC law. What about what Army or the NPRC can do 
at this time? The onus is on you as the keeper of the lists and the 
process to ensure that these claims and the appeals are expeditiously 
processed given the ages of the Filipino veterans. Is there anything 
that can be done administratively that could improve the consideration 
of alternative documentation provided by claimants?
    General MacEwen. I firmly believe there is nothing more the Army or 
the National Personnel Records Center can do internally at this time to 
improve the process. Yes, we are the keeper of the lists and the 
process, and yes, it is our responsibility to ensure that claims and 
appeals are expeditiously processed, but we believe we are executing 
this function to a very high standard. When a former or current U.S. 
Soldier presents a claim to the Army Board for Correction of Military 
Records, the highest level Board and only Board which exists today in 
the U.S. Army authorized to change a Soldier's official record, the 
Board looks for and accepts official documents which can be 
authenticated to justify changing the Soldier's record. This Board 
would not accept a hand-written note from a deceased commander; nor 
would it accept any document that could not be proven authentic. 
Throughout the verification process, we must ensure a certain level of 
integrity exists throughout the entire process; otherwise, the 
confidence in the process is lost. The introduction of new documents 
and information outside of the current process would make it even more 
difficult, if not impossible, to validate the authenticity of such 
documents today.
    Ms. Bordallo. In your testimony, you are also asking that the 
committee provide for a separate and expedited appeals process, and 
there are multiple bills circulating that address some facet of fixing 
the FVEC administration and appeals processes. Well, we appreciate that 
and will do what we can in this committee, but what about what can be 
done now by the Army, the VA, and the NPRC?
    General MacEwen. I cannot answer for the Veterans Administration 
specifically; however, the Army, the National Personnel Records Center, 
and the Veterans Administration, as a whole and independently, are each 
committed to executing our roles in this process to the highest 
standard possible. The Army, National Personnel Records Center and the 
Veterans Administration have partnered to ensure we provide timely and 
accurate processing of these claims, as well as providing greater 
transparency to the requesters. We look forward to working with the 
Committee if legislation is passed to modify the existing process. 
However, at the completion of a thoughtful, deliberate collaboration as 
conducted during the Filipino Veterans Equity Compensation Fund 
Interagency Working Group (comprised of the Department of Veterans 
Affairs, the Department of Defense, and the National Archives and 
Record Administration), which was specifically tasked with analyzing 
the process faced by Filipino Veterans in demonstrating eligibility for 
compensation, we have found no substantial or efficiency-gaining 
enhancements that could be injected into the current process without 
compromising the overall verification process.
    Ms. Bordallo. Could you describe how an expedited appeals process 
would work, and if there's anything that can be done with the current 
process internally that would improve the response time, even before it 
gets to the BVA?
    General MacEwen. As the Army's agent to verify service for Filipino 
Veterans, the National Personnel Records Center strives to complete all 
requests under the Filipino Veterans Equity Compensation Fund in 10 
days or less. They are also committed to reviewing cases a second, 
third, or fourth time if there is new information that leads to a 
corresponding claim folder or roster. We believe that the current 
process is sound, and cannot offer any changes to the internal 
operating procedure that might improve the response time.
    Ms. Bordallo. General MacEwen, in your testimony, you assert that 
your ``Guerrilla Recognition Program,'' which is the basis for your 
service verification process, is robust and thorough. And I have full 
faith that at the time, the compilation of the 1948 list was as 
thorough as the Army had intended.
    It has come to the attention of many of us that there are unusual 
cases of claimants to the FVEC where decisions do not seem consistent. 
One veteran, Romeo de Fernandez was denied FVEC because there is no 
record of his service with the NPRC, though he was awarded a P-O-W 
medal, and has been receiving service-connected disability compensation 
from the VA. Another veteran, Mr. Ciriaco Cruz was denied FVEC even if 
NPRC found a verification of his military service. Mr. Ceferino Palad, 
also a veteran, received FVEC, but his claim for service-connected and 
pension benefits were denied. These are just three of many Filipino 
veterans who have been denied pension benefits with these 
inconsistencies.
    I quote your testimony: ``It is not possible for the Army to 
conduct a better, more detailed, and more thorough investigation today 
than that which was conducted between 1942 and 1948.''
    Could you explain then, that with a robust list and a process that 
you have determined does not need changing, why such discrepancies 
exist? When even my iPhone software needs to be updated every few 
months, how can a process established in 1948 not need improvements?
    General MacEwen. I am not in a position to address the merits of 
the three cases you cited. Those specific claims appear to be within 
the purview of the Veterans Administration. Although the Army, National 
Personnel Records Center, and Veterans Administration work together in 
executing our roles to process claims for the Filipino Veterans Equity 
Compensation Fund, we still maintain complete independence in making 
determinations specific to our responsibilities and authority.
    Each agency is a steward of the government's resources and each 
will be held accountable accordingly; thus, we are not expected to 
agree on 100% of the cases 100% of the time, and we welcome new 
information at all levels and in every part of the process.
    Again, the Veterans Administration is best equipped to answer this 
question as they have overall ownership of both functions. The Army 
stands by to provide additional information and/or clarify the 
information provided.
    Ms. Bordallo. How does the NPRC or the BVA make the determination 
whether or not a claim contains information compatible with the NPRC 
archives?
    Mr. Levins. Thank you for your follow-up questions concerning the 
role of the National Archives and Records Administration (NARA), and 
specifically its National Personnel Records Center (NPRC) in 
referencing records to authenticate service determinations made by the 
Department of the Army regarding Filipino nationals who supported the 
United States Army Forces in the Far East, including those who served 
in guerrilla units, during World War II.
    Before addressing the specific questions, it may be helpful to 
clarify the role of NARA and specifically NPRC in the verification 
process. The NPRC serves as an agent for the U.S. Army, providing 
storage and reference services for records of the U.S. Army. Among the 
Army records held by NPRC are claim folders pertaining to Filipino 
nationals, which were adjudicated by the U.S. Army after World War II, 
and unit rosters created by the U.S. Army in conjunction with its 
recognition program. NPRC does not make service determinations but 
rather reviews the records described above to authenticate claims 
previously adjudicated by the U.S. Army. Most often, this is done in 
response to requests from the Department of Veterans Affairs regarding 
compensation claims.
    NARA has also preserved records of historical value documenting 
events that transpired in the Philippines during and after World War 
II. Included are records describing actions taken by the U.S. Army to 
recognize the service of Filipino nationals who supported the United 
States Army Forces in the Far East, including those who served in 
guerrilla units. These original records are available for public review 
at the National Archives Building in College Park, Maryland.
    Regarding this specific question, in authenticating guerrilla 
service, NPRC reviews the information provided from the claimant to 
identify the responsive claim folder. The claim folders are arranged 
alphabetically by subject name. In searching for the responsive claim 
folder, NPRC considers alternate spellings of the subject's name. Once 
a claim folder has been located, its contents are examined by a 
technician. In this examination, the technician is looking for an 
affidavit (AGO Form 23) submitted to the Army during its post-war 
recognition program. If an affidavit is located, the technician 
retrieves the corresponding unit roster and attempts to locate a 
matching name on the roster. If the corresponding unit roster includes 
a matching name, the service is authenticated. The process for 
authenticating service in the Philippine Commonwealth Army is similar, 
but allows for consideration of additional documentary evidence in the 
claim folder in instances where the subject's name does not appear on a 
roster.
    The term ``archives'' is used in a generic sense to refer to the 
rosters created as a result of the Army's post war recognition program, 
as opposed to permanent records which have been legally accessioned 
into the National Archives of the United States. A claim is deemed to 
contain information ``compatible with the archives'' where a claim 
folder contains acceptable documentation that matches information 
appearing on a corresponding unit roster. As described above, this is 
the threshold that must be met to authenticate guerrilla service. The 
process for authenticating service in the Philippine Commonwealth Army 
is similar, but allows for consideration of additional documentary 
evidence in the claim folder in instances where the subject's name does 
not appear on a roster. While NPRC provides reference services required 
to authenticate prior service determinations, it does not adjudicate 
claims or appeals. Questions about proceedings before the Board of 
Veterans' Appeals should be directed to the Department of Veterans 
Affairs.
    Ms. Bordallo. The case of veteran Mr. Gaudencio Pablo indicates 
that this was the first instance that official Army documents at the 
National Archives were used to determine Mr. Pablo's service after the 
NPRC initially could not verify Mr. Pablo's claim. Is it necessary for 
a veteran to have to appeal to the BVA, given that there are existing 
records that could augment the 1948 list?
    Mr. Levins. Thank you for your follow-up questions concerning the 
role of the National Archives and Records Administration (NARA), and 
specifically its National Personnel Records Center (NPRC) in 
referencing records to authenticate service determinations made by the 
Department of the Army regarding Filipino nationals who supported the 
United States Army Forces in the Far East, including those who served 
in guerrilla units, during World War II.
    Before addressing the specific questions, it may be helpful to 
clarify the role of NARA and specifically NPRC in the verification 
process. The NPRC serves as an agent for the U.S. Army, providing 
storage and reference services for records of the U.S. Army. Among the 
Army records held by NPRC are claim folders pertaining to Filipino 
nationals, which were adjudicated by the U.S. Army after World War II, 
and unit rosters created by the U.S. Army in conjunction with its 
recognition program. NPRC does not make service determinations but 
rather reviews the records described above to authenticate claims 
previously adjudicated by the U.S. Army. Most often, this is done in 
response to requests from the Department of Veterans Affairs regarding 
compensation claims.
    NARA has also preserved records of historical value documenting 
events that transpired in the Philippines during and after World War 
II. Included are records describing actions taken by the U.S. Army to 
recognize the service of Filipino nationals who supported the United 
States Army Forces in the Far East, including those who served in 
guerrilla units. These original records are available for public review 
at the National Archives Building in College Park, Maryland.
    Regarding this specific question, NPRC has in its holdings multiple 
claim folders pertaining to individuals named Gaudencio Pablo. Based on 
a review of each folder, it appears your question concerns Mr. 
Gaudencio Pagaduan Pablo, as this is the only Gaudencio Pablo that has 
been the subject of recent reference requests from the Department of 
Veterans Affairs. Over the years, NPRC and the Department of the Army 
(before this function was transferred to NPRC) have responded to at 
least seven requests for authentication of Mr. Pablo's prior service. 
Based on the documents they reviewed, neither NPRC nor the Department 
of the Army was able to authenticate Mr. Pablo's prior service.
    In instances where a claimant's prior service could not be 
authenticated, NPRC remains willing to re-examine its holdings and to 
make additional efforts to authenticate service. NPRC will undertake 
these efforts regardless of whether the individual has submitted a 
formal appeal to the Board of Veterans' Appeals involving a claim for 
Department of Veterans' Affairs benefits. However, unless new 
information is provided by the requester, such as a different spelling 
of the name or the use of an alias during the period of service, the 
outcome is likely to be the same. While NPRC provides reference 
services required to authenticate prior service determinations, it does 
not adjudicate claims or appeals. Questions about proceedings before 
the Board of Veterans' Appeals should be directed to the Department of 
Veterans' Affairs.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
